E-Mail Address:
briefs@wilsonepes.com

775 H Street, N.E.
Washington, D .C. 20002
Tel (202) 789-0096
Fax (202) 842-4896

Web Site:
www .wilsonepes.com
No. 20A87
THE ROMAN CATHOLIC DIOCESE OF
BROOKLYN, NEW YORK,

Applicant,

v.
GOVERNOR ANDREW M. CUOMO,
IN HIS OFFICIAL CAPACITY,
Respondent.
AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that on November 18, 2020, three (3) copies of the MOTION FOR LEA VE
TO FILE BRIEF AS AMICI CURIAE AND BRIEF OF THE AMERICAN MEDICAL
ASSOCIATION AND THE MEDICAL SOCIETY OF THE STATE OF NEW YORK AS AMICI
CURIAE IN SUPPORT OF RESPONDENT in the above-captioned case were served, as required
by U.S. Supreme Court Rule 29.5(c), on the following:
RANDY MICHAELMASTRO
GIBSON,DUNN& CRUTCHERLLP
200 Park Avenue, 48th Floor
New York, NY 10166
Counsel for Applicant

ANDREA OSER
Deputy Solicitor General
OFFICEOF THE NEW YORKSTATE
ATTORNEY GENERAL
28 Liberty Street
New York, NY 10005
Counsel for Respondent

The following email addresses have also been served electronically:
rmastro@gibsondunn.com
Andrea.Oser@ag.ny.gov
hquillen@whatleykallas.com
ROBYN DORSEYWILLI
WILSON-EPESPRINTINGCOMPANY, INC.
775 H Street, N.E.
Washington, D.C. 20002
(202) 789-0096

